OIG Investigative Reports, Former Vatterott director pleads guilty to financial aid fraud; KC school received $344,000 in federal aid for ineligible students
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
NEWS RELEASE
OFFICE OF THE UNITED STATES ATTORNEY
WESTERN DISTRICT OF MISSOURI
MATT J. WHITWORTH
Contact Don Ledford, Public Affairs    (816) 426-4220     400 East Ninth Street, Room 5510    Kansas City, MO 64106
www.usdoj.gov/usao/mow/index.html
DECEMBER 11, 2009
FOR IMMEDIATE RELEASE
FORMER VATTEROTT DIRECTOR PLEADS GUILTY
TO FINANCIAL AID FRAUD
KC SCHOOL RECEIVED $344,000 IN FEDERAL AID
FOR INELIGIBLE STUDENTS
KANSAS CITY, Mo. – Matt J. Whitworth, United States Attorney for the Western District of Missouri, announced that a former employee at the Kansas City, Mo., campus of Vatterott College pleaded guilty in federal court today to his role in a conspiracy to fraudulently obtain more than $344,000 in federal financial aid for ineligible students by providing false general equivalency diplomas (GEDs) and falsifying financial aid forms.
Kevin Earl Woods, 46, of Louisville, Ky., pleaded guilty before U.S. District Judge Gary A. Fenner this afternoon to the charge contained in a Feb. 5, 2009, federal indictment.
By pleading guilty today, Woods admitted that from August 2005 to July 2006, he and co-defendants Dominic L. Campbell, 38, of Kansas City, Mo., and Dale Odei Marbell, 33, a citizen of Ghana residing in Indianapolis, Ind., participated in a conspiracy to fraudulently obtain federal student grants and student loans for ineligible students at Vatterott College. Campbelland Marbell have also pleaded guilty to their roles in the conspiracy.
As a result of this conspiracy, approximately $344,881 in federal financial aid was disbursed to Vatterott College on behalf of students who were ineligible because they had neither graduated from high school nor obtained a General Equivalency Diploma (GED) certificate.
All three defendants began working at Vatterott College as admissions representatives. Woods, who began working for Vatterott in November 2003, was eventually promoted to campus co-director, a position he held until June 2006. As campus co-director, Woods was responsible for overseeing the Kansas City campus of Vatterott, including the financial aid and admissions departments and including the approval of all prospective student enrollment agreements. Campbell, who began working for Vatterott in December 2004, was eventually promoted to director of enrollment, a position he held until his termination in July 2006. As director of enrollment, Campbell was responsible for supervising approximately 12 admissions representatives, including Marbell. Marbell, who began working for Vatterott in July 2005, was an admissions representative until his termination in July 2006.
Campbell, Marbell and Woods admitted that they enrolled students at Vatterott whom they knew were ineligible to receive federal funding. Not only did Vatterott obtain federal funds it was not entitled to receive, but the defendants took credit for artificially inflated enrollment numbers at Vatterott to increase the likelihood of promotion and advancement.
On many occasions, ineligible students who enrolled at Vatterott College without
a high school diploma or GED were told to sign up for a GED class. A GED verification
request form was placed in the students file, but the form was never actually
sent to the state for verification. Additionally, all ineligible students who
were enrolled without a high school diploma or GED were instructed by the conspirators
to answer Yes to a Free Application for Federal Student Aid (FAFSA)
form question which asked, Will you have a high school diploma or GED
before you begin the 200X -200Y school year?
Additionally, the conspirators advised several eligible students (i.e. students with a valid high school diploma or GED) to list fictional dependents on their FAFSA forms believing that it would result in increased student financial aid.
Under federal statutes, each of the co-defendants is subject to a sentence of up to five years in federal prison without parole, plus a fine up to $250,000. Marbell is scheduled to be sentenced on Dec. 22, 2009, and Campbell is scheduled to be sentenced on Jan. 15, 2010. A sentencing hearing for Woods will be scheduled after the completion of a presentence investigation by the United States Probation Office.
This case is being prosecuted by Assistant U.S. Attorney David M. Ketchmark and Special Assistant U.S. Attorney Trey Alford. It was investigated by the Department of Education – Office of Inspector General.
****************
This news release, as well as additional information about the office of the United States Attorney for the Western District of Missouri, is available on-line at
www.usdoj.gov/usao/mow/index.html
Top
Printable view
Last Modified: 12/15/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov